Nos. 19-251 & 19-255
INTHE

~upreme ~ourt of tbe Wniteb ~tate%
AMERICANS FOR PROSPERITY FOUNDATION,

Petitioner,
V.

XAVIER BECERRA, in his official capacity
as the Attorney General of California,

Respondent.
THOMAS MORE LAW CENTER,

Petitioner,
V.

XAVIER BECERRA, in his official capacity
as the Attorney General of California,

Respondent.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief of Center for Equal Opportunity as Amicus Curiae in Support of
Petitioners contains 7,212 words and complies with the word limitation established by
Rule 33.l(g)(xii) of the Rule of this Court.
Dated: March 1, 2021

